TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Customer Account Data Engine 2 Database
                   Deployment Is Experiencing Delays and
                             Increased Costs



                                      September 23, 2013

                              Reference Number: 2013-20-125




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                 HIGHLIGHTS


CUSTOMER ACCOUNT DATA ENGINE 2                      With a revised projected implementation date of
DATABASE DEPLOYMENT IS                              January 2014, the overall total estimated cost of
EXPERIENCING DELAYS AND                             Transition State 1 system deployment rose from
INCREASED COSTS                                     $47.7 million to $83 million.
                                                    The CADE 2 database’s lack of accuracy,
                                                    completeness, and availability prevents it from
Highlights                                          serving as the trusted source for the
                                                    downstream systems. TIGTA also determined
Final Report issued on                              that the solution architecture of the CADE 2
September 23, 2013                                  database interfaces does not meet the IRS’s
                                                    business needs because it does not meet
Highlights of Reference Number: 2013-20-125         performance expectations and creates resource
to the Internal Revenue Service Chief               contention situations between servicing online
Technology Officer.                                 transactions and query operations.

IMPACT ON TAXPAYERS                                 In addition, the lack of security systems
                                                    integration prevents transaction-level tracking of
The Transition State 1 system deployment            employee access to the CADE 2 database.
phase of the Customer Account Data Engine 2
(CADE 2) database, which included interfaces to     WHAT TIGTA RECOMMENDED
downstream systems, was initially scheduled for
                                                    TIGTA recommended that the Chief Technology
implementation in September 2012. However,
                                                    Officer: 1) not exit Transition State 1
database deployment has been delayed, and
                                                    Milestone 5 until the interfaces with selected
deployment costs have risen an estimated
                                                    downstream systems are implemented into
74 percent to $83 million. Taxpayer service
                                                    production; 2) ensure that the CADE 2 database
improvements that were to be provided by the
                                                    is accurate, complete, timely, and available;
new transactional database have also been
                                                    3) deploy the CADE 2 database as the
delayed. Deployment delays and cost overruns
                                                    transactional database architected for Transition
can decrease the public’s confidence in the
                                                    State 2 and the Target State, as the authoritative
IRS’s ability to develop, monitor, and use its
                                                    data source for an enterprise data warehouse or
resources effectively.
                                                    a data mart, and not as a direct data source for
WHY TIGTA DID THE AUDIT                             downstream systems; and 4) ensure that user
                                                    access to the CADE 2 database is traced at the
The overall objective was to determine whether      transaction level by individual user’s
the IRS has implemented adequate CADE 2             identification.
database downstream interface data validation
to ensure that the data provided are accurate       In its response to the report, the IRS agreed with
and complete. This audit is included in our         one of the four recommendations and corrective
Fiscal Year 2013 Annual Audit Plan and              action is planned. IRS management agreed to
addresses the major management challenge of         certify the database is accurate, complete,
Modernization.                                      timely, and available to serve as the trusted
                                                    source. IRS management disagreed with the
WHAT TIGTA FOUND                                    three remaining recommendations. We believe
                                                    risks remain and we provided Office of Audit
The CADE 2 database cross-functional triage
                                                    Comments in the report.
team effectively managed and resolved more
than 1,000 data defects. However, our review
determined that the downstream system
interfaces were not implemented due to data
quality issues that exist with the CADE 2
database. The interfaces were also not
implemented by the revised date of June 2013.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 23, 2013


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Customer Account Data Engine 2 Database
                             Deployment Is Experiencing Delays and Increased Costs
                             (Audit #201320021)

 This report presents the results of our review of the Customer Account Data Engine 2 database
 downstream system interfaces. The overall objective of this review was to determine whether
 the Internal Revenue Service has implemented adequate Customer Account Data Engine 2
 database downstream interface data validation to ensure that the data provided are accurate and
 complete. This review, which was requested by the Chief Technology Officer, is included in the
 Treasury Inspector General for Tax Administration’s Fiscal Year 2013 Annual Audit Plan and
 addresses the major management challenge of Modernization.
 Management’s complete response to the draft report is included in Appendix IV.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. If you have any questions, please contact me or Alan R. Duncan,
 Assistant Inspector General for Audit (Security and Information Technology Services).
                          Customer Account Data Engine 2 Database Deployment Is
                                 Experiencing Delays and Increased Costs




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Cross-Functional Triage Team Effectively Managed and
          Resolved Data Defects .................................................................................. Page 3
          The Customer Account Data Engine 2 Database Downstream
          System Interface Implementation Has Been Delayed and
          Incurred Additional Costs ............................................................................. Page 3
                    Recommendation 1:........................................................ Page 7

          The Customer Account Data Engine 2 Database Currently
          Cannot Be Used as a Trusted Source for Downstream Systems .................. Page 7
                    Recommendation 2:........................................................ Page 10

          The Customer Account Data Engine 2 Database Interface
          Solution Architecture Does Not Meet the Business Needs .......................... Page 11
                    Recommendation 3:........................................................ Page 13

          The Lack of Security Systems Integration Prevents
          Transaction-Level Tracking of Employee Access to the
          Customer Account Data Engine 2 Database ................................................. Page 14
                    Recommendation 4:........................................................ Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 17
          Appendix II – Major Contributors to This Report ........................................ Page 19
          Appendix III – Report Distribution List ....................................................... Page 20
          Appendix IV – Management’s Response to the Draft Report ...................... Page 21
         Customer Account Data Engine 2 Database Deployment Is
                Experiencing Delays and Increased Costs




                       Abbreviations

CADE 2          Customer Account Data Engine 2
CFOL            Corporate Files Online
DAS             Data Access Service
IDRS            Integrated Data Retrieval System
IMF             Individual Master File
IMFOL           Individual Master File Online
IRM             Internal Revenue Manual
IRS             Internal Revenue Service
MIPS            Million Instructions Per Second
MS              Milestone
TIGTA           Treasury Inspector General for Tax Administration
TS              Transition State
VSAM            Virtual Storage Access Method
                      Customer Account Data Engine 2 Database Deployment Is
                             Experiencing Delays and Increased Costs




                                            Background

The Customer Account Data Engine 2 (CADE 2) Program is one of the top information
technology modernization projects in the Internal Revenue Service (IRS). The CADE 2 mission
is to provide state-of-the-art individual taxpayer account processing and data-centric
technologies to improve service to taxpayers and enhance tax administration. The CADE 2 will
replace the current Individual Master File (IMF)1 account settlement system with a relational
database processing system and become a key component in the IRS’s enterprisewide,
data-centric information technology strategy. Figure 1 provides the CADE 2 system
implementation phases.
                      Figure 1: CADE 2 System Implementation Phases

      Phase                                                Description
     Transition     The IRS will establish a relational database that will store all individual taxpayer
    State (TS) 1    accounts. Processing on the current IMF will be enhanced to include daily batch
                    processing, allowing the key IRS customer service database, the Integrated Data
                    Retrieval System (IDRS),2 to have the benefit of more timely posted data. Enhanced
                    data security will be in place. Interfaces between the CADE 2 database and selected
                    downstream systems, i.e., Corporate Files Online (CFOL)/IMF Online (IMFOL) and
                    IDRS, will be developed.
       TS2          A single processing system will be implemented. Applications will use the taxpayer
                    account database. The solution will leverage elements of the current IMF and current
                    CADE for some functions. The CADE 2 Program will make continued progress
                    addressing the financial material weaknesses. In the TS2, a combination of current-
                    state components and transitional components will be used to fill the functional needs
                    of individual taxpayer account processing. The TS2 is scheduled to be completed in
                    March 2015 with a total cost of $227.5 million. The total cost is subject to change.
    Target State    Provides a complete data-centric solution, retires all transitional components, and
                    addresses all financial and security material weaknesses identified at the inception of
                    the Program. As of May 20, 2013, the IRS had not established a Target State
                    implementation date.
Source: The CADE 2 Program Charter and meetings with the CADE 2 Program executives.

The TS1 has two major implementation pieces: Daily Processing and Database Implementation.
Daily Processing, which uses IMF files and not the CADE 2 database, went into production in

1
 The IRS system of record for individual taxpayer accounts.
2
 A mission-critical, steady state system consisting of databases and operating programs that support IRS employees
working active tax cases within each business function across the entire IRS.
                                                                                                          Page 1
                     Customer Account Data Engine 2 Database Deployment Is
                            Experiencing Delays and Increased Costs



January 2012. Database Implementation, while not fully implemented, developed a relational
database to store individual taxpayer account data migrated from IMF tape files on a daily basis.
In March 2012, the IRS initialized version 2.1 of the CADE 2 database with 270 million
individual taxpayer accounts and more than one billion tax modules. The IRS completed a
second database initialization in October 2012 and kept the database current and in-sync with
IMF data through December 2012.
In addition to building the CADE 2 database in TS1, certain downstream system interfaces are
also to be developed:
       CFOL/IMFOL: The TS1 will provide the capability to view taxpayer account data stored
        in the CADE 2 database using CFOL/IMFOL commands.
       IDRS: The TS1 will provide daily data extracts from the CADE 2 database to the IDRS.
The Treasury Inspector General for Tax Administration (TIGTA) conducted a prior review of the
CADE 2 Database Implementation project3 to ensure that the CADE 2 database is secure,
accurate, and complete. Our review raised concerns that testing did not provide assurance that
the CADE 2 database data are accurate and complete. In addition, we noted the CADE 2
database design had not fully met initialization, daily update, and downstream interface needs.
As a result, the audit report contained the following recommendations:
    1) Ensure that the CADE 2 Program does not exit the TS1 until the CADE 2 database can
       provide accurate and complete data to the three downstream systems.
    2) Ensure that the database design process follows the Internal Revenue Manual (IRM) and
       validate that the database design meets business requirements.
    3) Realign data validation and testing efforts with business functionality and processes.
This review was performed at the IRS Information Technology organization’s offices in
Lanham, Maryland, during the period December 2012 through April 2013. We conducted this
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




3
 TIGTA, Ref. No. 2012-20-109, The Customer Account Data Engine 2 Database Was Initialized; However,
Database and Security Risks Remain, and Initial Timeframes to Provide Data to Three Downstream Systems May
Not Be Met p. 3 (Sept. 2012).

                                                                                                     Page 2
                   Customer Account Data Engine 2 Database Deployment Is
                          Experiencing Delays and Increased Costs




                                Results of Review

The Cross-Functional Triage Team Effectively Managed and Resolved
Data Defects
One of the objectives of the TS1 is for the CADE 2 database to stay in-sync with the IMF system
and become the data source for the CFOL/IMFOL and its downstream systems. To accomplish
this objective, the IRS developed the Data Access Service (DAS) as an interface to the CADE 2
database for the CFOL/IMFOL and its 16 downstream systems. The CADE 2 database
CFOL/IMFOL/DAS solution architecture includes Identify and Extract Account Changes
modules to extract data from the IMF, modules to transform and load data into the CADE 2
database, and the DAS interface. Each system component was developed and supported by a
different team.
Between July 2012 and December 2012, the IRS performed multiple data quality tests and
recorded more than 1,000 defects, i.e., data and code. The IRS planned to conduct a
production deployment of the CADE 2 database and the CFOL/IMFOL/DAS interface on
December 30, 2012, and the development teams were tasked to resolve the defects prior to this
date. Defect management is a challenge for software development projects, and the final
CFOL/IMFOL/DAS interface test in production could not be completed until the identified
defects were resolved. To resolve the defects, the IRS established a cross-functional triage team
to manage the defects. The triage team included members from all development teams and
business users. It met daily to analyze defects, take ownership of the issues, and develop
solutions. The collaborative working environment established by the IRS to resolve the defects
increased productivity and expedited issue resolution. By the end of Calendar Year 2012, the
IRS reduced the number of open defects to five.

The Customer Account Data Engine 2 Database Downstream System
Interface Implementation Has Been Delayed and Incurred Additional
Costs
The initial scope of the TS1 included the deployment of CADE 2 database downstream
interfaces to the CFOL/IMFOL/DAS and the IDRS in September 2012. As development issues
arose, it became clear the IRS could not deliver the intended scope by September 2012. On
November 5, 2012, the CADE 2 Executive Steering Committee granted a conditional TS1
Milestone (MS) 5 (System Deployment Phase) exit with the following conditions:
   1. Availability of CFOL/IMFOL/DAS/CADE 2 database interface in production by
      December 2012.
                                                                                           Page 3
                       Customer Account Data Engine 2 Database Deployment Is
                              Experiencing Delays and Increased Costs



    2. Deployment of the CADE 2 database/IDRS interface by the fourth quarter of Fiscal
       Year 2013.
The CADE 2 Database Implementation Design Specification Report requires that the
CFOL/IMFOL/DAS interface provide 24-hour access seven days a week to the CADE 2
database for daily updated IMF data, support 400,000 transactions per peak hour, and serve up to
15,000 concurrent users. The IRS stated that it deployed the CFOL/IMFOL/DAS interface in the
production environment in December 2012. During the deployment, the production environment
was limited. For example, the IRS turned on the interface for six hours during the non-peak
period between 1 a.m. and 7 a.m. Eastern Time. Only six employees participated as testers
requesting 1,500 pre-selected taxpayer accounts from the CADE 2 database for data validation.
In addition, none of the 16 downstream systems that use CFOL/IMFOL to request IMF taxpayer
data participated in the December 2012 deployment. The interface has not been turned on again
since December 2012. Based on the limited deployment of the interface, we believe the
deployment was actually a test in the production environment. In addition, this test does not
prove the CFOL/IMFOL/DAS interface fulfills the CADE 2 Database Implementation Design
Specification Report requirements.
While the IRS is working to satisfy the TS1 MS 5 exit condition for deploying the
CFOL/IMFOL/DAS interface, our review identified no evidence of progress towards deploying
the CADE 2 database interface to the IDRS by the fourth quarter of Fiscal Year 2013. We
reviewed the February 2012 CADE 2 TS1 Integrated Master Schedule which projected
deployment of the IDRS interface to production in June 2012. On September 11, 2012, both the
Information Technology Capital Asset Summary for CADE 2 (Exhibit 300A) and the
Performance Measurement Report for CADE 2 (Exhibit 300B) showed delivery of the IDRS
interface extract planned for May 2013. However, our review of the Integrated Master Schedule
dated August 29, 2012, showed no entries for continued work on the IDRS interface and no
planned completion date. IRS management stated that it reassessed the IDRS interface and made
a risk-based decision to delay the development and deployment of the IDRS interface.
The IRS had not deployed the CFOL/IMFOL/DAS interface per Enterprise Life Cycle4 MS 5
requirements stated in IRM 2.16.1 nor demonstrated progress towards deployment of a
CADE 2 database/IDRS interface by the fourth quarter of Fiscal Year 2013. However, the
CADE 2 Program Management office, with Governance Board concurrence, proposed in
April 2013 that the CADE 2 Executive Steering Committee approve both of these interfaces for
TS1 MS 5 conditional exit. The IRS concluded that the original intent was to “prove out” that
the CADE 2 database can feed downstream systems, and that it met this requirement with the
December 2012 database feed to the CFOL/IMFOL/DAS interface. TIGTA does not agree that
“proving out” meets the IRM MS 5 exit requirement that the solution is put into use by all users


4
 The approach used by the IRS to manage and effect business change. The Enterprise Life Cycle provides the
direction, processes, tools, and assets for accomplishing business change in a repeatable and reliable manner.
                                                                                                            Page 4
                   Customer Account Data Engine 2 Database Deployment Is
                          Experiencing Delays and Increased Costs



to conduct IRS business. In addition, TIGTA does not agree that CFOL/IMFOL/DAS interface
testing in a production environment validates or “proves out” the design and implementation of
the IDRS interface because both interfaces operate under different models. The IDRS interface
will extract data daily from the CADE 2 database in batches and send the extract files to the
IDRS. The IDRS itself will not connect to the CADE 2 database. The CFOL/IMFOL/DAS
interface is a real-time, end user query access into the CADE 2 database to retrieve user
requested taxpayer account data.
The CADE 2 database downstream system interfaces did not meet the TS1 MS 5 exit criteria
due, in part, to the CADE 2 Program’s ongoing challenges of assuring quality data on the
CADE 2 database and meeting system performance requirements. These challenges are reflected
in the CADE 2 Governance Board’s recommendation in April 2013 that the CADE 2 Program
shift its focus from further proving out database functionality to getting the data accurate and
providing robust and sustainable system performance and operational readiness for the
2014 Filing Season. The CADE 2 Program acknowledged the importance of data quality
assurance to the successful deployment of the TS1 and developed a new comprehensive data
validation plan for 2013/2014. The Governance Board recommended that data assurance be a
new MS 5 exit condition. While the CADE 2 database is not in production, and downstream
systems are unable to retrieve and receive data from the CADE 2 database, CADE 2 TS1
implementation continues to be delayed and costs are increasing. Figure 2 illustrates the TS1
MS 5 deployment delays since September 2012 and the rise in deployment costs.




                                                                                         Page 5
                     Customer Account Data Engine 2 Database Deployment Is
                            Experiencing Delays and Increased Costs



                             Figure 2: CADE 2 Timeline and Costs
 




Source: Fiscal Year 2013 Performance Measurement Report; CADE 2 Transition State 1 Integrated Master
Schedule Milestone 4b-5; Chief Technology Officer memo, CADE 2 MS 5 Exit Decision Document; Executive
Steering Committee Briefing on December 20, 2012; and TIGTA’s analysis of Enterprise Life Cycle MS 5
requirements.

CADE 2 TS1 is experiencing increased costs and implementation delays. TS1 MS 5
deployment, which included both the CFOL/IMFOL/DAS interface and the IDRS interface, was
estimated in September 2012 to cost $47.7 million. This estimate projected deployment of the
CFOL/IMFOL/DAS interface in September 2012 and deployment of the IDRS interface in
May 2013. In November 2012, the CADE 2 Executive Steering Committee approved a
conditional exit of TS1 MS 5, which delayed deployment of the CFOL/IMFOL/DAS interface to
December 31, 2012, and deployment of the IDRS interface to the fourth quarter of Fiscal
Year 2013. By December 2012, cost estimates needed to be revised to reflect the reevaluation of
IDRS needs and the addition of CFOL, annual IMF conversion, and performance work. The new
December 2012 cost estimate for TS1 MS 5 was $83 million, an increase of 74 percent over the
September 2012 estimate.
Deployment of both the CFOL/IMFOL/DAS interface and the IDRS interface were included in
the December 2012 cost estimate. However, IDRS interface deployment activities were dropped
from the Integrated Master Schedule for the 2013 and 2014 Filing Seasons early in 2013. Cost
estimates will need to be revised upward again if the IDRS is to be delivered as part of the TS1
as originally planned.

                                                                                                    Page 6
                   Customer Account Data Engine 2 Database Deployment Is
                          Experiencing Delays and Increased Costs



Recommendation
Recommendation 1: The Chief Technology Officer should not exit TS1 MS 5 until the
CFOL/IMFOL/DAS and IDRS interfaces are implemented into production.
       Management’s Response: The IRS disagreed with this recommendation because it
       has already exited TS1 MS 5 based on the CADE 2 Executive Steering Committee
       approval on November 5, 2012, with exit conditions. On April 4, 2013, the CADE 2
       Executive Steering Committee approved the closure of both milestone exit conditions and
       approved two new conditions on data assurance, robust and sustainable system
       performance, and operational readiness. The Executive Steering Committee gave
       approval to proceed on a release plan and deployment approach for CADE 2 TS1
       Database Implementation for the 2014 Filing Season that mitigated risks and ensured a
       clean and sustainable filing season production deployment. The model to make
       risk-based decisions exercised by the Executive Steering Committee on April 4, 2013, is
       part of the overall governance model that the IRS adopted at the beginning of the
       CADE 2 Program.
       Office of Audit Comment: Interfaces from the CADE 2 database to the
       CFOL/IMFOL/DAS and the IDRS are two of three TS1 interface deliverables
       documented in the CADE 2 Program Charter. These two interfaces were not delivered
       and were not in production prior to exiting the TS1. Therefore, the IRS did not meet the
       conditions for exiting MS 5. Also, during the 2014 Filing Season, the CADE 2 database
       will not be used to process tax returns.

The Customer Account Data Engine 2 Database Currently Cannot Be
Used as a Trusted Source for Downstream Systems
According to industry standards, data quality assurance can be achieved only when the following
criteria are met:
      Accuracy: Data must be correct and consistent.
      Completeness: All related data must be linked from all possible sources.
      Availability: Data must be available upon demand.
      Timeliness: Current data must be available.
The IRS conducted data validation tests of the CADE 2 database between July 2012 and
December 2012. Our review of the test results determined data in the CADE 2 database do not
meet accuracy and completeness or availability criteria.



                                                                                         Page 7
                     Customer Account Data Engine 2 Database Deployment Is
                            Experiencing Delays and Increased Costs



The IMF tape files are the current source of data for downstream systems. Figure 3 shows the
current CFOL/IMFOL/Virtual Storage Access Method (VSAM) interface with the IMF tape
files. This solution provides accurate daily updated IMF data to CFOL/IMFOL users.
               Figure 3: The IMF VSAM CFOL/IMFOL Interface Data Flow




Source: Based on the IRS Computer Operator Handbook.

Figure 4 shows the data migration process and the flow of data through the CADE 2
database/CFOL/IMFOL/DAS interface.
       Figure 4: The CADE 2 Database CFOL/IMFOL/DAS Interface Data Flow




Source: TIGTA’s review of the CADE 2 Database Implementation Design Specification Report.

Figures 3 and 4 show that the CFOL/IMFOL/VSAM interface and the CFOL/IMFOL/DAS
interface data flows use the same IMF tape files as their original data source. While the IMF
tape file data successfully migrates to the IMF VSAM files, the migration of data from the IMF
tape files to the CADE 2 database has had data quality issues. Between July 2012 and

                                                                                            Page 8
                    Customer Account Data Engine 2 Database Deployment Is
                           Experiencing Delays and Increased Costs



January 2013, data validation tests of the CADE 2 TS1 design resulted in 1,006 defect tickets.
The data validation test results led to the IRS applying 2.4 million data corrections to the
CADE 2 database.
Figure 5 provides a summary of the data correction counts. Of the 2.4 million data corrections,
more than 2.2 million (almost 92 percent) resulted from the Extract, Transform, and Load
process.
                   Figure 5: The CADE 2 Database Data Corrections
                      Component/Process                          Data Correction Count
        Identify and Extract Account Changes - Extract                     1,383,265
        Transform and Load                                                   890,638
        IMF Reel Replacements                                                      11
        Manual Refund Transaction, i.e., Transaction                         137,653
        Code 840
        TOTAL                                                              2,411,567
       Source: CADE 2 Executive Status Update January 2, 2013, and CADE 2 development teams.

The Extract, Transform, and Load process is the core process of the CADE 2 database’s
continuous data migration process of Initialization, Cycle Synchronization, and Daily/Weekly
Update. In order for the CADE 2 TS1 design to replicate the success of the IMF data migration
process, the interpretation of the meaning and usage of data from the IMF files and fields must
be consistent between the Identify and Extract Account Changes modules, the Transformation
and Load modules, and the CADE 2 database tables and columns; otherwise, it will result in a
data defect. Although the current CADE 2 data validation effort attempts to validate the data
quality of the CADE 2 database, it compares only the IMF VSAM data against the end result of
the data migration process: the contents of the CADE 2 database. The current CADE 2 data
validation does not review the entire data migration process of Extract, Transform, and Load
where data and code defects were identified. A validation that interprets the meaning and usage
of IMF data and ensures that it is consistent throughout the entire data migration and retrieval
process would prevent future data defects from occurring.
Another issue we identified from the data validation tests is that the IMFOL Screen Compare
data validation test tool used by the IRS was capable of validating only 55 percent (533 of 964)
of the columns in the CADE 2 database. As of April 2013, the IMFOL Screen Compare was the
only automated high volume data validation tool available. Given that the IRS could not
evaluate 431 columns for data accuracy, there are potentially more data defects yet to be
discovered. The IRS is developing additional tools and implementing a new data validation
testing methodology intended to achieve timeliness, accuracy, integrity, validity, reasonableness,

                                                                                               Page 9
                   Customer Account Data Engine 2 Database Deployment Is
                          Experiencing Delays and Increased Costs



completeness, and uniqueness. The IRS requested that TIGTA review the new data validation
testing methodology. The effectiveness of the IRS’s new methodology will be evaluated in a
separate audit.
While data defects challenge CADE 2 data quality assurance, the completeness of the database is
also in question. For example, when the daily update process cannot successfully update
Taxpayer Identification Numbers, i.e., taxpayer accounts, that have a known data problem, the
daily update process continues and leaves those accounts incomplete on the CADE 2 database
until they can be updated at a later time. While these accounts are awaiting update, the DAS has
to retrieve its data from the IMF VSAM files, not the CADE 2 database. This is known as the
Taxpayer Identification Number-bypass solution. The CADE 2 database is incomplete while the
update issues are being resolved. The Taxpayer Identification Number-bypass solution is an
acceptable process once the CADE 2 database is in production and is serving as a transactional
database. This solution should not be used for the migration of processed data from the IMF to
the CADE 2 database.
In addition, not all taxpayer account data requested by downstream systems are available on the
CADE 2 database. Archived taxpayer data on the Recoverable Retention Register remain only
on the IMF VSAM files; the data are not migrated to the CADE 2 database in the TS1.
Therefore, the CADE 2 database is not a complete representation of IMF taxpayer account data.
IMF VSAM files must be maintained and kept operational along with the CADE 2 database in
order to ensure that CFOL/IMFOL users have access to complete taxpayer account data.
The CADE 2 database is not in daily operation in the production environment; therefore, it is not
available for the downstream system CFOL/IMFOL interface, and TIGTA cannot evaluate its
timeliness. The lack of data accuracy, completeness, and availability prevents the CADE 2
database from serving as the trusted data source for the downstream systems.

Recommendation
Recommendation 2: The Chief Technology Officer should certify the CADE 2 database is
accurate, complete, timely, and available to serve as the trusted source.
       Management’s Response: The IRS agreed with the recommendation, and controls
       are in place to ensure that this occurs. On April 4, 2013, the CADE 2 Executive Steering
       Committee approved the CADE 2 TS1 MS 5 exit conditions focusing on data assurance,
       robust and sustainable system performance, and operational readiness. These exit
       conditions will ensure that the database is accurate, complete, and can be updated timely
       before it is made available to serve as a trusted source for tax processing.




                                                                                         Page 10
                     Customer Account Data Engine 2 Database Deployment Is
                            Experiencing Delays and Increased Costs



The Customer Account Data Engine 2 Database Interface Solution
Architecture Does Not Meet the Business Needs
The DAS interface is designed to be an interface between the CADE 2 database and the existing
CFOL/IMFOL user interface. In the TS1, 16 of 18 downstream systems that are currently using
the CFOL/IMFOL with the IMF VSAM files as the data source will use the CFOL/IMFOL/DAS
interface with the CADE 2 database as the data source. The CFOL/IMFOL/DAS interface
assists these 16 systems to directly retrieve data from the CADE 2 database, and transform and
deliver data in the same format that the 16 downstream systems’ users are accustomed to
receiving. The CFOL/IMFOL/DAS interface is expected to:
       Serve up to 15,000 concurrent users.
       Provide 24-hour access seven days a week to daily updated IMF data from the
        CADE 2 database.
       Deliver 400,000 transactions per peak hour and serve up to 3.8 million data calls a day.
To meet the business needs, the CADE 2 Program implemented a dual database solution
architecture, i.e., an active database and a replica database. The CADE 2 active database is
designed to support all future IMF transaction processing and serve as the back-up data source
for the CFOL/IMFOL interface. The CADE 2 replica database serves as the primary data source
for the CFOL/IMFOL interface and its 16 downstream systems. The replica database is cloned
from the CADE 2 active database. It requires 4.5 hours to complete cloning and consumes
approximately 1,400 Million Instructions Per Second (MIPS) during cloning.
Figure 6 shows the CADE 2 database CFOL/IMFOL/DAS systems interface performance
statistics during the December 2012 limited production deployments in comparison to its
expected performance statistics, and with the IMF VSAM - CFOL/IMFOL interface performance
statistics.
        Figure 6: Comparison of IMF VSAM Interface Versus CADE 2 Database
                              Interface Performances
                     IMF VSAM -              CADE 2 Database -                 CADE 2 Database -
                     CFOL/IMFOL              CFOL/IMFOL/DAS                   CFOL/IMFOL/DAS
                       Interface             Interface Expected             Interface December 2012
 MIPS                     1.6                      3.6-4.1                            16.1
 Response Time               <1                         <1                               7.2
 in Seconds
Source: The CADE 2 Database Implementation Performance Review Summary, the CADE 2 Database
Implementation Design Specification Reports, the CADE 2 Database Implementation Design Effort Approach, and
the development team’s confirmation.

                                                                                                    Page 11
                    Customer Account Data Engine 2 Database Deployment Is
                           Experiencing Delays and Increased Costs



The CFOL/IMFOL/DAS interface performance statistics for response time and MIPS were
several times that of CFOL/IMFOL/VSAM interface, and more than 700 percent greater than the
expected performance statistics. However, due to the limited production deployment not
accurately representing the production environment, we believe the actual performance numbers
will be worse for the following reasons:
      The cloning process, which can consume 1,400 MIPS for 4.5 hours, was idle.
      The Daily/Weekly Update process including “insert,” “delete,” and “update” operations
       did not take place.
      The 16 downstream systems were not included in the tests, where the DAS could have
       retrieved and transformed 60 million taxpayer accounts in a single request.
      Only six users participated in the test versus the 15,000 concurrent users expected in
       production.
      Up to 100 report users who access the CADE 2 database via Business Object.
IRS management stated that system performance has improved since our analysis of the
December 2012 test in production. The IRS made changes to the extract, transform, and load
code and reduced the MIPS consumption per transaction to 8.8 MIPS during Final Integration
Testing.
In addition, to resolve the CFOL/IMFOL/DAS interface performance issues experienced during
the limited production deployments, the IRS implemented additional indexes to the CADE 2
database. However, indexes negatively affect the CFOL/IMFOL/DAS interface solution
architecture and affect its ability to deliver business needs. Our review of best practices confirms
that indexes applied to relational databases degrade the performance of “insert,” “delete,” and
“update” operations. In TS1, the same CADE 2 database indexes implemented to improve the
DAS’s query performance would negatively affect the Daily/Weekly Update process of “insert,”
“delete,” and “update” operations that update the CADE 2 active database with IMF data. It has
been documented that on average, there would be 350,000 inserts and 5,142,857 updates to the
CADE 2 database per day. If the average number of indexes for a CADE 2 database table is
four, then there could be 1,750,000 insert operations per day (350,000 x 5, one for the data row
plus four for index rows).
When the CADE 2 database is serving as the transactional database in production, its primary
goal will be servicing the online transactions of “insert,” “delete,” and “update.” By adding
indexes to improve DAS query performance, the CADE 2 online transaction performance will be
negatively affected as previously described. However, the performance impact will be directed
toward the user community during office hours or peak hours, and magnified as these online
transactions are not being executed in the background at night like the Daily Update. In addition,
when the active database is serving as the data source, DAS queries will compete directly against
the active database’s transactional operations resulting in a resource contention and resource
                                                                                           Page 12
                    Customer Account Data Engine 2 Database Deployment Is
                           Experiencing Delays and Increased Costs



constraint situation within the system. As a result, not only are online transactions affected, the
downstream system performance will continue to get worse.
The IRS identified MIPS consumption as a risk to the CADE 2 Program. The query
performance, database cloning, Daily/Weekly update, IMF VSAM interface operation,
CFOL/IMFOL/DAS interface operation, and potential large amounts of data retrieved by
downstream systems will compete for MIPS/computing resources and CADE 2 database services
on a regular basis. This will create resource contention that could affect the system performance.
The dual database solution has a fundamental design issue because the transactional CADE 2
database also serves as the reporting database for the downstream systems. In reviewing the
identified issues, we conclude that the CADE 2 database CFOL/IMFOL/DAS interface solution
architecture does not meet the IRS’s business needs. These issues will affect IRS tax
administration processes and the quality of the service provided to taxpayers.

Recommendation
Recommendation 3: The Chief Technology Officer should deploy the CADE 2 database as
the transactional database. Architect the CADE 2 database for the TS2 and the Target State, as
the authoritative data source for an enterprise data warehouse or a data mart, and not as a direct
data source for downstream systems.
       Management’s Response: The IRS disagreed with this recommendation. The
       CADE 2 database in the TS1 is being deployed as the transactional database foundation
       and is built to support the TS2 and the Target State. In the Target State, the CADE 2
       database will serve as the consolidated authoritative source of taxpayer account data for
       an integrated data warehouse and for common services that provide for Online
       Transaction Processing. The IRS acknowledges that during the transition phases, the
       CADE 2 database may serve indirectly as a data source for downstream systems through
       the CFOL/IMFOL/DAS interface. The IRS is making architecture decisions to use
       transition components to bridge to existing systems to achieve incremental
       modernization.
       Office of Audit Comment: Our review of the solution architecture indicated the
       CADE 2 database will serve as a transactional database and a direct source for the
       downstream systems in the production environment. In addition, the IRS identified MIPS
       consumption as a risk to the CADE 2 Program. The query performance, database
       cloning, Daily/Weekly update, IMF VSAM interface operation, CFOL/IMFOL/DAS
       interface operation, and potential large amounts of data retrieved by downstream systems
       will compete for MIPS/computing resources and CADE 2 database services on a regular
       basis.




                                                                                            Page 13
                   Customer Account Data Engine 2 Database Deployment Is
                          Experiencing Delays and Increased Costs



The Lack of Security Systems Integration Prevents Transaction-Level
Tracking of Employee Access to the Customer Account Data Engine 2
Database
The CADE 2 – CFOL/IMFOL systems interface uses two security systems to provide user
authentication and access control and auditing functionality. The two security systems are:
      Security and Communication System: Authentication system for end users in the
       CFOL/IMFOL systems.
      Resource Access Control Facility: Authentication for the system account used to access
       the CADE 2 database.
We reviewed logs generated by both security systems to verify the CADE 2 data calls (requests)
and user authentication processes. The Security and Communication System logs trace
individual user authentication in the CFOL/IMFOL systems prior to accessing the DAS system
account. However, the database audit logs track the Resource Access Control Facility system
account that accesses the CADE 2 database. For example, the database audit logs we reviewed
indicate that for all recorded transactions, the Source User Name and Destination User Name are
the same system account with no individual users identified.
Our tests determined access to taxpayer data in the CADE 2 database does not comply with
IRM 10.8.32.2.1, Mainframe System Security Requirements, which ensures that the users are
who they say they are and identifies the resources, datasets, and transactions that they are
allowed to access. TIGTA attempted to trace a transaction from the CFOL/IMFOL systems data
call to the CADE 2 database and was unable to follow the transaction once it passed through the
DAS system account. Figure 7 illustrates a data call and the authentication process.




                                                                                         Page 14
                                Customer Account Data Engine 2 Database Deployment Is
                                       Experiencing Delays and Increased Costs



                       Figure 7: CFOL/IMFOL Command Call to CADE 2 Database
    Does Not Exist in Current
    Production Environment
    Current Data Call Flow


                                                                Standard CFOL Access Protocol/
                                                                                                                      18 Downstream
                                                              Standard CFOL Overnight Processing
                                                                                                                       Applications
                                                                        Data Requests




    CADE 2 Database


                                                                               IMFOL                  IMFOL
                                 CHICO*           IMFOL
                                                                              Reformat                Screen
                                               Read Program
                                                                              Program               Applications


                                                                                                                                  24x7
                                                                                                                               IMFOL/CFOL
        CADE 2                                                                                                                    User
    Database Replica




                                                Available
                                               Contingency
                                                                                                   Screen-Scrapping
                                                                                                    Data Requests



                                                                                Field                                   Screen-
                                  VSAM Files                                  Identifier                               Scrapping
               IMF
                                                                               Tables                                 Downstream
                                                                             (Transient)                              Application




                     *CFOL Hyper-Channel Interface for Customer Information Control System, Office of Legal Counsel
Source: CADE 2 Simulation/Monitoring Room Tabletop Exercise: CFOL/IMFOL DAS – Initial Deployment
Process Steps, November 4, 2012.

The current system design does not integrate the two security systems. Therefore, the original
user identification from the Security and Communication System cannot be passed to the
Resource Access Control Facility system to ensure traceability from the CFOL/IMFOL systems
to the CADE 2 database. As a result, all DAS system account requests from the CFOL/IMFOL
systems to the CADE 2 database have the system account as the valid user, i.e., all
CFOL/IMFOL systems users access the CADE 2 database by going through a single DAS
system account. This can lead to unauthorized access to taxpayer data being undetected by audit
logs.

Recommendation
Recommendation 4: The Chief Technology Officer should ensure that user access to the
CADE 2 database is traced at the transaction level by individual user’s identification.
          Management’s Response: The IRS disagreed with this recommendation. Users of
          the downstream applications such as CFOL/IMFOL are not authorized to directly access
          the CADE 2 database. Therefore, there are no permissions or access provisioned in the
                                                                                                                                 Page 15
           Customer Account Data Engine 2 Database Deployment Is
                  Experiencing Delays and Increased Costs



Resource Access Control Facility system. Auditing for CFOL/IMFOL users is performed
at the application level, and access is granularly controlled with checks validating the
user is authorized to execute the command code in question from the terminal the user is
on. The CFOL service account is granted access and appropriate permissions in the
Resource Access Control Facility system to execute queries that access the CADE 2
database; these queries are audited by the Guardium appliance. This architecture
provides auditing of user activity at the application level, auditing of application tier
activity at the database level, and enforcement of the principles of least privilege and
separation of duties because end users are not provisioned permissions to the database
that are not required.
Office of Audit Comment: We believe user access risk to sensitive data is not
properly mitigated. Users of downstream systems access the CADE 2 database through a
system account. Users’ credentials are not passed to the system account along with the
command codes. Therefore, the system account does not allow traceability of individual
users at the transaction level.




                                                                                 Page 16
                  Customer Account Data Engine 2 Database Deployment Is
                         Experiencing Delays and Increased Costs



                                                                               Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS has implemented adequate
CADE 2 database downstream interface data validation to ensure that the data provided are
accurate and complete. To accomplish our objective, we:
I.     Determined if the CADE 2 – CFOL/IMFOL interface solution architecture delivers the
       business users’ needs.
       A. Interviewed the Subject Matter Expert to understand the CADE 2 – CFOL/IMFOL
          interface solution architecture.
       B. Obtained and reviewed the CADE 2 – CFOL/IMFOL interface design and testing
          documents to ensure that the interface supports downstream systems.
       C. Determined if the CFOL/IMFOL performance statistics meet the required system
          performance objectives.
II.    Determined if the operation of the CADE 2 – CFOL/IMFOL interface will ensure the
       availability, accuracy, and timeliness of the data.
       A. Obtained and reviewed the Change Control Management procedure of CFOL/IMFOL
          software and data components.
       B. Determined if support procedures and organizations have been implemented to ensure
          the existing CFOL/IMFOL systems availability.
       C. Determined the impact of the CFOL/IMFOL on downstream systems.
III.   Determined if Personally Identifiable Information is properly secured and CFOL/IMFOL
       systems access is properly managed to prevent its exposure, mitigate system downtime,
       and identify the potential for fraud, waste, and abuse.
       A. Obtained and reviewed downstream system documents and procedures.
       B. Obtained and reviewed documents of access control and change control management
          regarding the security of CFOL/IMFOL systems software and data components.
       C. Obtained and reviewed the security integration of the IDRS, Security and
          Communication System, CFOL/IMFOL, DAS, CADE 2 database, and the Resource
          Access Control Facility system.
IV.    Determined the progress of the CADE 2 database/IDRS interface implementation to
       resolve the TS1 MS 5 conditional exit.
                                                                                      Page 17
                   Customer Account Data Engine 2 Database Deployment Is
                          Experiencing Delays and Increased Costs



       A. Determined if the CADE 2 database/IDRS interface development progress is
          consistently communicated and on schedule to resolve the MS 5 conditional exit.
       B. Interviewed the Subject Matter Expert to understand the CADE 2 database/IDRS
          interface solution architecture.
       C. Obtained and reviewed the interface design and testing documents to ensure that the
          interface supports downstream systems.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRM, related CADE 2 documents, and
guidelines and processes in the development of the CADE 2 database and interfaces. We
evaluated these controls by conducting interviews and meeting with IRS management and staff;
attending CADE 2 meetings; and reviewing the CADE 2 Program Charter, CADE 2 Solution
Architecture, CADE 2 Database Implementation Design Specification Report, CADE 2 Database
Implementation Design and Performance Overview, CADE 2 Database Implementation Data
Validation Plan, Data Validation Strategy – Smart Sampling, DAS Performance Summary, and
other documents that provided evidence of whether the IRM database development and systems
testing processes were followed and if those processes were adequate and operating as designed.




                                                                                       Page 18
                  Customer Account Data Engine 2 Database Deployment Is
                         Experiencing Delays and Increased Costs



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Danny Verneuille, Director
K. Kevin Liu, Audit Manager
Hung Q. Dam, Lead Auditor
Myron Gulley, Senior Auditor
Arlene Feskanich, Information Technology Specialist
Nicholas Reyes, Information Technology Specialist




                                                                                     Page 19
                  Customer Account Data Engine 2 Database Deployment Is
                         Experiencing Delays and Increased Costs



                                                                           Appendix III

                         Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer for Strategy and Modernization OS:CTO
Associate Chief Information Officer, Application Development OS:CTO:AD
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Associate Chief Information Officer, Enterprise Information Technology Program Management
Office OS:CTO:MP
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Director, Security Risk Management OS:CTO:C:SRM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Wage and Investment Division SE:W:S:PRA:PEI
       Director, Risk Management Division OS:CTO:SP:RM




                                                                                   Page 20
     Customer Account Data Engine 2 Database Deployment Is
            Experiencing Delays and Increased Costs



                                                 Appendix IV

Management’s Response to the Draft Report




                                                        Page 21
Customer Account Data Engine 2 Database Deployment Is
       Experiencing Delays and Increased Costs




                                                   Page 22
Customer Account Data Engine 2 Database Deployment Is
       Experiencing Delays and Increased Costs




                                                   Page 23
Customer Account Data Engine 2 Database Deployment Is
       Experiencing Delays and Increased Costs




                                                         



                                                   Page 24
